No. 20-190
In The
Supreme Court of the United States

DANIEL SOHN AND JULIET SOHN,
Petitioners,
V.
COUNTY OF MARIPOSA, etc., et al.,
Respondents.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari contains
6029 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 19, 2020.
/s/ Glen C. Hansen
Glen C. Hansen
Counsel of Record
Abbott & Kindermann, Inc. Counsel for
Respondents

